                                 Limited Official Use




               The Master File Disaster Recovery Exercise
              Was Completed, but Significant Vulnerabilities
                         Should Be Addressed

                                    March 2004

                       Reference Number: 2004-20-053




The Treasury Inspector General for Tax Administration (TIGTA) has designated
this audit report as Limited Official Use (LOU) pursuant to Treasury Directive TD
P-71-10, Chapter III, Section 2, “Limited Official Use Information and Other
Legends” of the Department of Treasury Security Manual. Because this document
has been designated LOU, it may only be made available to those officials who have
a need to know the information contained within this report in the performance of
their official duties. This report must be safeguarded and protected from
unauthorized disclosure; therefore, all requests for disclosure of this report must be
referred to the Disclosure Section within the TIGTA’s Office of Chief Counsel.




                                 Limited Official Use
                                   Limited Official Use
            The Master File Disaster Recovery Exercise Was Completed, but
                   Significant Vulnerabilities Should Be Addressed

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Mark Carder, Acting Audit Manager
Frank Greene, Senior Auditor
Wallace Sims, Senior Auditor
Tina Wong, Senior Auditor
Kim McManis, Auditor




                                Limited Official Use                                Page 2
